 

 

   

THE STATE

of Department of Law
ALASKA CIVIL DIVISION

GOVERNOR MICHAEL J. DUNLEAVY
1031 West 4th Avenue, Suite 200

Anchorage, Alaska 99501
August 8, 2019 Main: 907.269.5100

Fax: 907.276.3697
Honorable Scott S. Harris

Clerk of the Court

Supreme Court of the United States

One First Street, N.E.

Washington, D.C. 20543-0001

Re: David Thompson, et al. v. Heather Hebdon, Executive Director of the
Alaska Public Offices Commission , et al.; No. 19-122

Dear Mr. Harris:

The petition for a writ of certiorari in this matter was filed on July 22, 2019, and
placed on the docket on July 25. The respondents hereby give notice that some of the
named parties who were sued in their official capacities have ceased to hold office,
meaning that the current office-holders have been automatically substituted in their place
under Rule 35 of this Court. Further filings should be captioned accordingly, naming the
following respondents:

Heather Hebdon, in her official capacity as the Executive Director of
the Alaska Public Offices Commission; and Anne Helzer, Robert
Clift, Richard Stillie, Suzanne Hancock, and Van Lawrence, in their
official capacities as members of the Alaska Public Offices

Commission.

Respectfully submitted,

TREGARRICK R. TAYLOR

DEPUTY ATTORNEY GENERAL

By: Ser FSS
Laura Fox a
Senior Assistant Attorney General
Alaska Department of Law

(907) 269-5275
laura.fox@alaska.gov
Counsel of Record for Respondents
Honorable Scott S. Harris August 8, 2019
Substitution of Public Officers Page 2 of 2

Certificate of Service
I hereby certify that a copy of the foregoing is being mailed to:
Paul D. Clement

Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW

Washington, D.C. 20004
¢ Mh Bogen an 4449
Vir gi ‘a BoZeman Date

Law Office Assistant II
